                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF mSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: A-041 10069
                                                                                     I          Page 1 of 1



           Our office initiated a proactive review of participant support costs to determine if these funds are
           being used appropriately. Participant support costs are specifically defined costs (GC-1,7a,
           7/02) and these funds cannot be reallocated to any other budget category without NSF
           permission. The proactive review selected awards closing between 2000 and 2003 that included
           at least $70,000 in participant support costs. For each of these awards, we wrote to the grantee
           requesting financial information and explanatory material related to the expenditures of
           participant support costs.

           In this case, the grantee provided our office with financial documents and explanations related to
           participant support expenditures under an NSF award.' We noted that none of the information
           provided by the grantee appeared to document any appropriate participant support cost
           expenditure. Our review of the award showed that the grantee provided a detailed "Budget
           Summary" to NSF of its planned use for all of its requested participant support costs. We
           observed that none of these planned listed uses actually qualified as appropriate participant
           support costs. Despite the fact that the grantee provided the NSF program officer and NSF
           budget office with this information prior to funding, NSF approved funding the award.


Il         We determined that, although the budget in the award contained inappropriate expenses within
           the participant support cost category, the grantee provided a good faith budget that NSF
           approved. This case is closed and no further action will be taken.




I'
 NSF OIG Form 2 (1 1/02)
